No. _______________
IN THE
SUPREME COURT OF THE UNITED STATES
ALFRED MONTGOMERY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit
CERTIFICATE OF SERVICE
NOW COMES Assistant Federal Public Defender Celia C. Rhoads,
court-appointed counsel for Petitioner Alfred Montgomery certifies as follows:
1.

The Federal Public Defender appointed to represent Petitioner Alfred

Montgomery under the Criminal Justice Act, 18 U.S.C. § 3006A, has assigned
Mr. Montomery’s case to me.
2.

On this 8th day of February, 2021, electronic versions of the foregoing

Motion for Leave to Proceed in Forma Pauperis and Petition for Writ of Certiorari
were transmitted to the following:
The Honorable Noel Francisco, Solicitor General of the United States
(or current Acting Solicitor General of the United States)
SupremeCtBriefs@usdoj.gov
Counsel for the United States of America

3.

The Office of the Solicitor General advised the Federal Public Defender’s

Office previously that it agrees to electronic service at the e-mail address identified
above, in light of this Court’s order dated April 15, 2020, related to the COVID-19
pandemic. Accordingly, no paper copies have been mailed to the Solicitor General.
4.

All parties required to be served have been served.
Respectfully submitted this 8th day of February, 2021.
/s/ Celia C. Rhoads
CELIA C. RHOADS
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
500 Poydras Street, Suite 318
Hale Boggs Federal Building
New Orleans, Louisiana 70130
(504) 589-7930
celia_rhoads@fd.org

2

